HHS/OIG, Audit -"Review of Delaware's Accounts Receivable System for Medicaid Provider Overpayments,"(A-03-04-00205)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Delaware's Accounts Receivable System for Medicaid Provider Overpayments," (A-03-04-00205)
October 13, 2004
Complete
Text of Report is available in PDF format (672 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Delaware reported all identified Medicaid provider overpayments
in a timely and accurate manner.  Based on a review of provider overpayments identified during fiscal year 2003, Delaware
did not report 3,184 overpayments totaling $838,906 ($437,592 Federal share), did not report 205 overpayments totaling
$440,861 ($226,460 Federal share) timely, and  incorrectly netted overpayments against expenditures.  In addition,
Delaware incorrectly reported provider overpayments totaling $1,108,545 on the wrong line of the CMS-64 because of an incorrect
spreadsheet formula.  We recommended that Delaware (1) include unreported overpayments totaling $838,906 on the CMS-64
and refund the Federal Government $437,592 representing the Federal share, (2) ensure overpayments are reported within
60 days in accordance with Federal regulations, (3) establish an adequate integrated accounting system that records, ages
and accurately reports overpayments on the CMS-64, and (4) review and correct the spreadsheet used to consolidate provider
overpayments reported on the CMS-64.